APPENDIX A

Case: 18-35956, 11/13/2020, ID: 11891597, DktEntry: 69-1, Page 1 of 20

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No. 18-35956
D.C. No.
2:17-cv-00668TSZ

v.
KOMRON M. ALLAHYARI,
Defendant,
and
SHAUN ALLAHYARI,
Defendant-Appellant.

UNITED STATES OF AMERICA,
Plaintiff-Appellant,

No. 18-36076
D.C. No.
2:17-cv-00668TSZ

v.
KOMRON M. ALLAHYARI; SHAUN
ALLAHYARI,
Defendants-Appellees.

A-1

OPINION

Case: 18-35956, 11/13/2020, ID: 11891597, DktEntry: 69-1, Page 2 of 20

2

UNITED STATES V. ALLAHYARI
Appeal from the United States District Court
for the Western District of Washington
Thomas S. Zilly, District Judge, Presiding
Argued and Submitted February 7, 2020
Seattle, Washington
Filed November 13, 2020
Before: Milan D. Smith, Jr. and N. Randy Smith, Circuit
Judges, and John R. Tunheim, * Chief District Judge.
Opinion by Chief District Judge Tunheim
SUMMARY **

Tax
The panel reversed the district court’s determination that
Shaun Allahyari’s alleged security interest in property
owned by his son, Komron Allahyari, a tax delinquent, was
not entitled to priority over later-recorded federal tax liens;
and remanded to the district court for reconsideration.
At issue in the case was real property owned by Komron
Allahyari and two related instruments: (1) the 2005 Deed of
Trust; and (2) a deed of trust that secured a $400,000 loan
*

The Honorable John R. Tunheim, United States Chief District
Judge for the District of Minnesota, sitting by designation.
**

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

A-2

Case: 18-35956, 11/13/2020, ID: 11891597, DktEntry: 69-1, Page 3 of 20

UNITED STATES V. ALLAHYARI

3

Komron took out from the Boeing Employees’ Credit Union
(“BECU”) to refinance the real property in 2003. In order to
avoid foreclosure, Shaun paid off and took assignment of the
2003 BECU loan and loan security. The Internal Revenue
Service determined that Komron owed unpaid taxes,
penalties, and interest. The United States filed this civil
action to enforce the tax liens. Komron and Shaun argued
that the 2005 Deed of Trust and Shaun’s interest in the
BECU loan should be senior to the tax liens.
The panel held that the district court erred: 1) by holding
that the deed of trust between father and son was not entitled
to priority over the later-recorded federal tax liens under
local law; and 2) by failing to consider whether past
consideration was sufficient to support an agreement giving
rise to a security interest under Washington law. The panel
concluded that the district court applied an incorrect standard
of proof under Washington’s Fraudulent Transfer Act. In
addition, the panel concluded that, because 26 U.S.C.
§ 7403(a) authorized the United States to subject any
property or interest of the delinquent to the payment of such
tax or liability, the United States could assert any affirmative
defenses that would be available to the delinquent –
including that the statute of limitations has run on payments
due to senior liens.
The panel remanded for reconsideration of whether
Shaun Allahyari had parted “with money or money’s worth”
when acquiring the 2005 Deed of Trust, and for application
of the correct standard of proof and for recalculation of the
value of the senior lien, taking into account any statute of
limitations defense raised by the United States regarding
Washington’s applicable six-year statute of limitations.

A-3

Case: 18-35956, 11/13/2020, ID: 11891597, DktEntry: 69-1, Page 4 of 20

4

UNITED STATES V. ALLAHYARI
COUNSEL

Avi J. Lipman (argued), Gregory J. Hollon, and Curtis C.
Isacke, McNaul Ebel Nawrot & Helgren PLLC, Seattle,
Washington, for Defendant-Appellant/Cross-Appellee.
Komron R. Allahyari, Mercer Island, Washington, pro se
Defendant/Cross-Appellee.
Karen G. Gregory (argued) and Deborah K. Snyder,
Attorneys; Richard E. Zuckerman, Principal Deputy
Assistant Attorney General; Tax Division, United States
Department of Justice; for Plaintiff-Appellee/CrossAppellant.

OPINION
TUNHEIM, Chief District Judge:
Shaun Allahyari (“Shaun”) appeals the district court’s
determination that his alleged security interest in property
owned by his son, Komron Allahyari (“Komron”), a tax
delinquent, was not entitled to priority over later-recorded
federal tax liens. He argues that the district court erred when
it found that the alleged security interest was fraudulent
under Washington’s Fraudulent Transfer Act, Wash. Rev.
Code. § 19.40.041(a)(1). The United States cross-appeals
the district court’s conclusion that it could not, under
26 U.S.C. § 7403, assert a state-law statute-of-limitations
defense to the court’s valuation of a security interest that was
found to be senior to federal tax liens.
We first conclude that the district court erred: (1) by
holding that the deed of trust between Shaun and Komron

A-4

Case: 18-35956, 11/13/2020, ID: 11891597, DktEntry: 69-1, Page 5 of 20

UNITED STATES V. ALLAHYARI

5

recorded on July 26, 2005 (“2005 Deed of Trust”) was not
entitled to priority over the later-recorded federal tax liens
under local law; the 2005 Deed of Trust is protected under
Washington law; and (2) by failing to consider whether past
consideration is sufficient to support an agreement giving
rise to a security interest under Washington law. Second, we
conclude that the district court applied the incorrect standard
of proof to its finding under the Fraudulent Transfer Act.
Lastly, we conclude that, because § 7403(a) authorizes the
United States to “subject any property, of whatever nature,
of the delinquent, or in which [the delinquent] has any right,
title, or interest, to the payment of such tax or liability,” the
United States may assert any affirmative defenses that would
be available to the delinquent—including that the statute of
limitations has run on payments due to senior liens.
Accordingly, we reverse and remand to the district court
for reconsideration of whether Shaun had parted “with
money or money’s worth” when acquiring the 2005 Deed of
Trust, and for application of the correct standard of proof and
for recalculation of the value of the senior lien, taking into
account any statute of limitations defense raised by the
United States regarding Washington’s six-year statute of
limitations.
FACTUAL AND PROCEDURAL BACKGROUND
At issue in this case are property owned by Komron on
Mercer Island and two related instruments: (1) the 2005
Deed of Trust; and (2) a deed of trust (“BECU Deed of
Trust”) that secured a $400,000 loan Komron took out from
the Boeing Employees’ Credit Union (“BECU”) to refinance
the Mercer Island property in 2003.

A-5

Case: 18-35956, 11/13/2020, ID: 11891597, DktEntry: 69-1, Page 6 of 20

6

UNITED STATES V. ALLAHYARI

I. Mercer Island Property Transactions
Komron and Shaun have a long history of financial
transactions and entanglements relating to the Mercer Island
property. On March 29, 1991, Komron executed a
promissory note (“1991 Promissory Note”) to his parents, in
which Komron promised to pay $50,000 in satisfaction of a
loan his parents had given him to purchase the Mercer Island
property. On April 22, 1991, Komron and his parents
acquired the property. During the years following the 1991
Promissory Note, Shaun regularly requested payment on the
note, and Komron failed to make payments until he repaid a
significant part of the loan in 1998. Afterwards, Komron’s
parents transferred their joint interest in the Mercer Island
property to Komron, who solely owned it from September
1999 onward.
In 2003, Komron took out a $400,000 loan from BECU,
which was secured by the BECU Deed of Trust on the
Mercer Island property. In 2010, Shaun learned that
Komron was at risk of losing the Mercer Island property
because he had defaulted on the BECU loan. In order to
prevent foreclosure, Shaun paid off and took an assignment
of the 2003 BECU loan and loan security.
After years of failing to file federal income-tax returns,
Komron filed for tax years 1999–2002 and 2004 in April of
2005. The IRS subsequently determined that Komron owed
unpaid income taxes, trust-fund recovery penalties, and
interest. Komron failed to make payment in full on these
assessments and, at the time of the district court decision in
September 2019, owed the United States $3.9 million.
Initially, Komron hid these debts from Shaun. When
Komron eventually told Shaun about the outstanding tax
liabilities, Shaun became concerned that the United States

A-6

Case: 18-35956, 11/13/2020, ID: 11891597, DktEntry: 69-1, Page 7 of 20

UNITED STATES V. ALLAHYARI

7

would be able to record tax liens against the Mercer Island
property and then force the sale of the property to satisfy the
liens. Shaun and Komron then executed the 2005 Deed of
Trust on the Mercer Island property, which purported to
secure payment of $471,322 at 12% interest. This amount
apparently represented the preexisting debts owed by
Komron to Shaun, because Shaun stated (both in his
deposition and at trial) that he did not loan Komron any
additional money at the time the 2005 Deed of Trust was
executed.
The 2005 Deed of Trust was recorded on July 26, 2005.
The first notice of federal tax liens was recorded against
Komron on October 4, 2005.
When the United States filed a civil action to enforce the
tax liens in April 2017, Komron and Shaun argued that the
2005 Deed of Trust and Shaun’s interest in the BECU loan
should be senior to the tax liens. The United States argued
that the 2005 Deed of Trust was not a security interest under
the Internal Revenue Code because it was a fraudulent
conveyance under Washington law. It also argued that some
scheduled payments under the BECU Deed of Trust were
time barred by Washington’s six-year statute of limitations
and therefore should not be included in the value of any
senior claim under the BECU Deed of Trust.
II. Proceedings in the District Court
After a bench trial, the district court found that the
United States had valid federal tax liens on the Mercer Island
property and was therefore entitled to foreclose those liens
and sell the property. The district court also found that
Shaun had priority position over the federal tax liens based
on the BECU Deed of Trust but not the 2005 Deed of Trust.

A-7

Case: 18-35956, 11/13/2020, ID: 11891597, DktEntry: 69-1, Page 8 of 20

8

UNITED STATES V. ALLAHYARI

The district court reasoned that Shaun did not have
priority based on the 2005 Deed of Trust because it was not
a security interest under 26 U.S.C. § 6323(a) and because the
2005 Deed of Trust was a fraudulent conveyance under state
law. First, the district court determined that the 2005 Deed
of Trust did not entitle Shaun to priority position because
Shaun had either actual or constructive knowledge of
Komron’s tax liabilities prior to recording the 2005 Deed of
Trust. It also determined that, because there had been no
exchange of money or money’s worth when the 2005 Deed
of Trust was granted or recorded, it was not a security
interest under federal law. Finally, the district court found
that the 2005 Deed of Trust was invalid under Washington’s
Uniform Fraudulent Transfer Act. Therefore, Shaun did not
qualify as a holder of a security interest based on the 2005
Deed of Trust and the United States’ tax liens had priority.
However, the district court did conclude that Shaun was
entitled to priority over the United States’ federal tax liens
with respect to the BECU Deed of Trust. Shaun “stepped
into BECU’s ‘shoes’ when he purchased the BECU loan,”
so the assignment was a bona fide debt. The district court
determined that Shaun is entitled to the same priority
position as BECU would have had based on the original
loan.
The district court ordered the Mercer Island property to
be sold and, after deducting the costs of sale and any amount
owing in back taxes to King County, found that Shaun was
entitled to the next $510,766.26 of the proceeds, based on
the principal and interest owing on the BECU Deed of Trust.
The district court then held that the United States was
entitled to the remainder of the proceeds of the sale until its
tax liens were satisfied.

A-8

Case: 18-35956, 11/13/2020, ID: 11891597, DktEntry: 69-1, Page 9 of 20

UNITED STATES V. ALLAHYARI

9

Plaintiffs timely appealed and the United States timely
cross-appealed.
JURISDICTION AND STANDARD OF REVIEW
We have jurisdiction pursuant to 28 U.S.C. § 1291. We
review factual findings by the district court for clear error
and review its conclusions of law de novo. Magnuson v.
Video Yesteryear, 85 F.3d 1424, 1427 (9th Cir. 1996) (citing
Fed. R. Civ. P. 52(a).
ANALYSIS
When a person is “liable to pay any [federal] tax” but,
“after demand,” neglects or refuses to pay, a lien equal to the
amount past due—plus penalties, costs, and interest—
attaches to “all property and rights to property, whether real
or personal, belonging to such person.” 26 U.S.C. § 6321.
A tax lien created under § 6321 “shall not be valid as against
any . . . holder of a security interest . . . until notice thereof”
is given. Id. § 6323(a). The putative holder of such a
security interest bears the burden of showing that they
qualify for the protection of § 6323(a). See, e.g., MacKenzie
v. United States, 109 F.2d 540, 542 (9th Cir. 1940) (holding
that, under the predecessor of § 6323(a), “in order to be
protected, the claimant must show” that they are within one
of the protected third-party classes).
The district court found that Shaun had failed to meet his
burden. United States v. Allahyari, No. C17-668, 2018 WL
4357487, at *7 (W.D. Wash. Sept. 13, 2018). It held that the
2005 Deed of Trust was not a “security interest” for the
purposes of § 6323 because it failed to meet the definition of
that term as provided in § 6323(h). Id.

A-9

Case: 18-35956, 11/13/2020, ID: 11891597, DktEntry: 69-1, Page 10 of 20

10

UNITED STATES V. ALLAHYARI

I. Security Interest
Section 6323 defines a security interest as “any interest
in property acquired by contract for the purpose of securing
payment or performance of any obligation or indemnifying
against loss or liability.” 26 U.S.C. § 6323(h)(1). The
statute also requires that (A) “the interest has become
protected under local law against a subsequent judgment lien
arising out of an unsecured obligation” and (B) “at such
time, the holder has parted with money or money’s worth.”
Id.
The district court determined that Shaun failed on both
the protected-by-local-law and money-or-money’s-worth
prongs. The 2005 Deed of Trust was not protected by local
law “because Shaun had actual and/or constructive notice of
Komron’s tax liabilities prior to recording the 2005 Deed of
Trust.” Allahyari, 2018 WL 4357487, at *6. The district
court also held that Shaun failed to “contemporaneously”
part with money or money’s worth. Id. at *7. We will
address each conclusion in turn.
A. Notice
The district court determined that § 6323 would afford
priority to a security interest, but only if that interest “has
become protected under local law,” which thereby
implicated Washington’s race-notice recording statute. Id.
at *6 (quoting 26 U.S.C. § 6323(h)(1)). 1 With this, we agree.
1

The district court cited Kim v. Lee, 31 P.3d 665, 668, as amended
(Dec. 12, 2001), opinion corrected, 43 P.3d 1222 (Wash. 2001), when
reaching its conclusion. The citation to Kim—a case that revolved
primarily around questions of equitable subrogation and was not a model
of clarity—has created some confusion among the parties. We find that
another case, interpreting Washington’s recording statute to confer

A-10

Case: 18-35956, 11/13/2020, ID: 11891597, DktEntry: 69-1, Page 11 of 20

UNITED STATES V. ALLAHYARI

11

The district court then reasoned that, because Shaun had
either actual or constructive notice of the federal tax liens,
his security interest was not entitled to priority under § 6323.
Id. at *6. We disagree.
First, “we must keep in mind that ‘[a] federal tax lien is
wholly a creature of federal statute,’” TKB Int’l, Inc. v.
United States, 995 F.2d 1460, 1463 (9th Cir. 1993) (quoting
Kivel v. United States, 878 F.2d 301, 303 (9th Cir. 1989)),
and that federal law governs the priority of competing liens,
Aquilino v. United States, 363 U.S. 509, 513–15 (1960). As
we noted in MacKenzie, before 1913, “no third person was
protected under any circumstances from an unrecorded
federal tax lien.” 109 F.2d at 542. At that time, however,
Congress amended the federal tax lien statute to protect
mortgagees, purchasers, and judgment creditors against
unrecorded federal tax liens, id., and, in 1966, extended the
same protection to holders of a security interest, Federal Tax
Lien Act of 1966, Pub. L. 89-719, 80 Stat. 1125, 1125. 2 The
relevant provision, § 6232(a), now reads: “The lien imposed
by section 6321 shall not be valid as against any purchaser,
holder of a security interest, mechanic’s lienor, or judgment
lien creditor until notice thereof which meets the
requirements of subsection (f) has been filed by the
Secretary.” 26 U.S.C. § 6323(a).
In short, federal tax liens are invalid against the interests
held by these specific classes until the United States properly
superior status only to one who acquires a property interest with “no
actual or constructive notice” of another’s prior interest, is more apt. See
Tomlinson v. Clarke, 825 P.2d 706, 712 (Wash. 1992).
2

For all other third parties, the common-law principle, “the first in
time is the first in right,” remains the rule. United States v. McDermott,
507 U.S. 447, 449 (1993).

A-11

Case: 18-35956, 11/13/2020, ID: 11891597, DktEntry: 69-1, Page 12 of 20

12

UNITED STATES V. ALLAHYARI

records notice of the liens. TKB, 995 F.2d at 1466; see also
United States v. Vohland, 675 F.2d 1071, 1074–75 (9th Cir.
1982). Further, because “‘we must deem the United States’
lien to have commenced no sooner than the filing of notice,”’
it is “unimportant” whether a party protected under
§ 6323(a) had notice of any prior-existing but not-yet
recorded federal tax liens. TKB, 995 F.2d at 1464–65
(quoting United States v. McDermott, 507 U.S. 447, 449
(1993)). In fact, as we noted in TKB, Congress explicitly
rejected an attempt to preclude protection under §6323(a) for
those who acquired an interest in property with actual
knowledge of federal tax liens. 3 See id. at 1466 n.4.
Therefore, we extend our holding in TKB, which
involved a subsequent purchaser, to holders of security
interests, because both classes share the same level of
protection under § 6323(a). 4 We thus conclude that
§ 6323(a) protects security interests acquired with or without
knowledge of unfiled or later filed tax liens. Accord In re
Haas, 31 F.3d 1081, 1088 (11th Cir. 1994) (“Actual
knowledge by a secured creditor of the IRS’s lien prior to
filing does not enhance the IRS’s position vis-a-vis that
creditor[.]”). Accordingly, Shaun’s actual knowledge of the
federal tax liens, at least three of which had already attached
to Komron’s property when he recorded his 2005 Deed of
3

This rejection occurred before the 1966 amendment of § 6323(a),
which added security interests to the protected list, but this does not alter
our analysis, for Congress specifically added security interests to the list
of interests protected by § 6323(a), whereas other interests protected
under other provisions of § 6323 are protected by differing means.
4

We note that TKB similarly drew upon McDermott, which
involved a judgment creditor, to inform its analysis of § 6323(a), as,
again, both interests are provided for under § 6323(a), whereas other
protected interests are covered separately.

A-12

Case: 18-35956, 11/13/2020, ID: 11891597, DktEntry: 69-1, Page 13 of 20

UNITED STATES V. ALLAHYARI

13

Trust, did not destroy the priority status of his security
interest, for notice of these liens was only recorded after his
deed was. The district court erred by relying on Washington
law and reaching the opposite conclusion.
However, this is not to say that the state law referenced
by § 6323 in relation to security interests is wholly
unimportant to our analysis. Instead, while federal law
determines priority between competing interests, state law
helps determine whether Shaun’s 2005 Deed of Trust is a
qualifying “security interest” under § 6323, as the first
requirement of the statute is that a security interest “has
become protected under local law against a subsequent
judgment lien[.]” 28 U.S.C. § 6323(h)(1).
Therefore, for Shaun’s security interest to qualify for
priority, it must have become protected under local law
before the United States filed notice of its tax liens. Under
Washington law, a security interest must be perfected to be
protected against a subsequent judgment lien. Wash. Rev.
Code §§ 62A.9A-102(a)(52)(A), 62A.9A-317(a)(2)(A).
When a security interest is created by deed of trust, an
individual must record the deed in the county where the
property is located to perfect the security interest. Wash.
Rev. Code §§ 61.24.020, 62A.9A.308(e), 65.08.060,
65.08.070. 5 Accordingly, under Washington state law,
5
The district court read the significance of § 65.08.070 backwards
in time; that is, it assessed whether Shaun’s security interest would have
been protected against an already perfected judgment lien creditor.
Allahyari, 2018 WL 4357487, at *6. Section 6323(h)(1), however,
clearly states that the relevant inquiry is whether the security interest is
protected against “subsequent” judgment liens. That is, § 6323(h)(1)
describes the legal status a security interest must obtain to have priority
over interests perfected later in time. This is further indicated by
Congress’s use of the present perfect, “has become,” which signifies an

A-13

Case: 18-35956, 11/13/2020, ID: 11891597, DktEntry: 69-1, Page 14 of 20

14

UNITED STATES V. ALLAHYARI

Shaun’s security interest would have been subject to
destruction by a subsequent judgment lien only until he
recorded the 2005 Deed of Trust. 6
By recording the 2005 Deed of Trust on July 26, 2005,
Shaun perfected his security interest under Washington state
law and protected it from that day forward. Because he
perfected the 2005 Deed of Trust before the United States
filed notice of its tax liens, we hold that Shaun’s security
interest has priority over the federal tax liens, see
McDermott, 507 U.S. at 450, at least as far as the first prong
of § 6323(h)(1) is concerned.
B. Money or Money’s Worth
The district court concluded that Shaun failed to satisfy
the money-or-money’s-worth prong of § 6323(h)(1) because
there was no contemporaneous exchange. Although the term

action that began in the past and extends into the present, or until the
United States files notice of its tax lien. See, e.g., In re Restivo Auto
Body, Inc., 772 F.3d 168, 174–75 (4th Cir. 2014).
6
We note that Washington state law allows a potential judgment
lien creditor to file a lis pendens, which provides notice in much the same
way as recording notice of a federal tax lien does. See Wash. Rev. Code.
§ 4.28.320. We also note that sister circuits have interpreted the phrase
“protected under local law against a subsequent judgment lien” to be
equivalent to being protected against a “lien creditor” as defined by the
Uniform Commercial Code, see In re Haas, 31 F. 3d at 1087; Dragstrem
v. Obermeyer, 549 F.2d 20, 25 (7th Cir. 1977), which Washington state
law mirrors, compare U.C.C. § 9-317(a)(2) (formerly § 9-301), with
Wash. Rev. Code § 62A.9A-317(a)(2). Moreover, the U.C.C. considers
knowledge, actual or otherwise, to be irrelevant when determining the
priority between competing security interests. See, e.g., U.C.C. § 9-322
cmt. n.4.

A-14

Case: 18-35956, 11/13/2020, ID: 11891597, DktEntry: 69-1, Page 15 of 20

UNITED STATES V. ALLAHYARI

15

is not defined in § 6323, the regulation interpreting the
statute defines “money or money’s worth” as:
tangible or intangible property, services, and
other consideration reducible to a money
value. Money or money’s worth also includes
any consideration which otherwise would
constitute money or money’s worth under the
preceding sentence which was parted with
before the security interest would otherwise
exist if, under local law, past consideration is
sufficient to support an agreement giving rise
to a security interest . . . .
Treas. Reg. § 301.6323(h)-1(a)(3) (as amended in 2011). 7
The Treasury Regulation does not itself require a
“contemporaneous” exchange.
Instead, it requires
determination of whether state law allows past consideration
to give rise to a security interest. The district court did not
address this question under Washington law—instead citing
to a Fourth Circuit case, the facts of which did not necessitate
a past-consideration analysis—and erred by assuming
contemporaneous exchange was necessary. On remand, to
determine whether Shaun “parted with money or money’s
worth,” the district court must determine “whether past
consideration is sufficient to support an agreement giving
rise to the security interest” under Washington law.

7
The 2011 amendment added the requirement that, even if past
consideration was allowable under local law, “the grant of the security
interest is not a fraudulent transfer under local law or 28 U.S.C.
§ 3304(a)(2).” 76 Fed. Reg. 18384, 18388 (Apr. 4, 2011). However,
this amendment only applies after April 4, 2011 and therefore is
immaterial here.

A-15

Case: 18-35956, 11/13/2020, ID: 11891597, DktEntry: 69-1, Page 16 of 20

16

UNITED STATES V. ALLAHYARI

II. Fraudulent Transfer
In addition to concluding that the 2005 Deed of Trust
was not a security interest under § 6323, the district court
also held that the 2005 Deed of Trust was a fraudulent
transfer in violation of state law “because Komron intended
to ‘hinder, delay, or defraud’ the United States.” Allahyari,
2018 WL 4357487, at *7 (quoting Wash. Rev. Code
§ 19.40.041(a)(1) (2004) (“A transfer made . . . by a debtor
is fraudulent . . . if the debtor made the transfer . . . [w]ith
actual intent to hinder, delay, or defraud[.]”)). The district
court based this conclusion on its determination that the
United States “ha[d] established the elements of a fraudulent
transfer by a preponderance of the evidence.” Id. at *8.
Washington has long required clear and satisfactory
proof to find a fraudulent transfer under the “hinder, delay,
or defraud” prong of section 19.40.041.
See, e.g.,
Clearwater v. Skyline Const. Co., Inc., 835 P.2d 257, 266
(Wash. Ct. App. 1992) (applying the clear-and-satisfactoryproof standard to Wash. Rev. Code § 19.40.041); Sparkman
& McLean Co. v. Derber, 481 P.2d 585, 591 (Wash. Ct. App.
1971) (applying the clear-and-satisfactory-proof standard to
Washington’s previous fraudulent-transfer statute (citing
Rohrer v. Snyder, 69 P. 748, 750 (Wash. 1902) (“Where the
good faith of a conveyance is assailed, it is not enough that
the evidence may cause a suspicion as to its good faith. The
evidence must be clear and satisfactory, and such as
convinces the mind that the conveyance is in reality
fraudulent.”))).

A-16

Case: 18-35956, 11/13/2020, ID: 11891597, DktEntry: 69-1, Page 17 of 20

UNITED STATES V. ALLAHYARI

17

The United States argues otherwise, 8 relying on a 2013
decision from the bankruptcy court of the Western District
of Washington, which stated that “[t]he Trustee, as plaintiff,
has the burden of proving the elements of a fraudulent
conveyance under federal and state law by a preponderance
of the evidence.” In re Consol. Meridian Funds, 487 B.R.
263, 267 (Bankr. W.D. Wash. 2013). However, that decision
cites no authority and appears simply to misstate the law.
The United States also relies on a comment from the
Uniform Voidable Transactions Act (“UVTA”) which states
“proof of intent to ‘hinder, delay, or defraud’ a creditor . . .
is sufficient if made by a preponderance of the evidence.”
Unif. Voidable Transactions Act § 4, cmt. 10 (Unif. Law
Comm’n 2014). The comment reflects the addition in 2014
of a subsection (c), which specifically adopts a
preponderance-of-the-evidence standard of proof. Id. § 4(c).
Washington did not adopt the UVTA until 2017, 2017 Wash.
Sess. Laws 238, 245, and it applies only to transfers made
after July 23, 2017. Id. at ii. Therefore, both authorities on
which the United States relies are inapposite. Because the
transfer at issue in this case took place more than a decade
before Washington adopted the UVTA, the clear-andsubstantial-proof standard applies to whether the 2005 Deed
of Trust is a fraudulent transfer under the then-applicable
version of Wash. Rev. Code § 19.40.41(a)(1) (2004).

8

In his opening brief, Shaun noted that the standard of proof for
intent to hinder, delay, or defraud is clear and satisfactory proof.
Although Shaun did not argue further regarding the standard of proof,
the United States argued in its response that the district court had
correctly weighed the evidence of fraud using the preponderance-of-theevidence standard. Shaun then extensively argued the standard-of-proof
issue in his response brief. Because Shaun cited the correct standard in
his opening brief and the United States provided contrary argument in its
response, we conclude Shaun has not forfeited the argument.

A-17

Case: 18-35956, 11/13/2020, ID: 11891597, DktEntry: 69-1, Page 18 of 20

18

UNITED STATES V. ALLAHYARI

Because the district court used the incorrect legal
standard in making its determinations, we remand for the
district court to reweigh the evidence using the clear-andsatisfactory-proof standard of proof. 9
III.

The United States’ Cross Appeal

The United States may bring a civil action to enforce a
tax lien in a district court and “to subject any property, of
whatever nature, of the delinquent, or in which [the
delinquent] has any right, title, or interest, to the payment of
such tax or liability.” 26 U.S.C. § 7403(a). The district court
must then “adjudicate all matters involved therein and finally
determine the merits of all claims to and liens upon the
property” and, if the court concludes the United States has a
“claim or interest,” it will generally be obliged to “decree a
sale of such property.” Id. § 7403(c); see also United States
v. Rodgers, 461 U.S. 677, 706–11 (1983)) (acknowledging
that Congress amended § 7403(c) to read that district courts
“may decree a sale” in 1936 but holding that district courts
do not have “unbridled discretion” to decline to do so).
The United States argued in the district court that,
whatever the value of Shaun’s senior lien from the BECU
Deed of Trust, it must not include the value of payments for
which the six-year statute of limitations had run. The district
9

In its response, the United States argues for the first time that the
2005 Deed of Trust could also be found to be a fraudulent transfer under
Wash. Rev. Code § 19.40.051(b) (2004), presumably because that
subsection requires a lower standard of proof than section 19.40.41(a)(1)
(2004). However, because the United States did not raise this issue
before the district court, we will not consider it. See In re Mercury
Interactive Corp. Sec. Litig., 618 F.3d 988, 992 (9th Cir. 2010) (“An
issue will generally be deemed waived on appeal if the argument was not
raised sufficiently for the trial court to rule on it.” (cleaned up)).

A-18

Case: 18-35956, 11/13/2020, ID: 11891597, DktEntry: 69-1, Page 19 of 20

UNITED STATES V. ALLAHYARI

19

court did not address this argument directly; instead it simply
concluded that “Shaun is entitled to the same priority
position for the interest accrued on the BECU Loan” and
calculated the interest as $127,721.52. Allahyari, 2018 WL
4357487, at *9.
Washington has a six-year statute of limitations for any
“liability express or implied arising out of a written
agreement.” Wash. Rev. Code § 4.16.040(1). This statute
of limitations applies to monthly installment payments under
a deed of trust, as was the case with the BECU Deed of Trust.
See Edmundson v. Bank of Am., 378 P.3d 272, 277–78
(Wash. Ct. App. 2016) (holding that the six-year statute of
limitations begins to run “for each installment [payment]
from the time it became due”). The United States argues that
the district court erred by failing to calculate and exclude
from its valuation of Shaun’s BECU Deed of Trust any
payments that would be subject to the relevant statute of
limitations.
When “subject[ing] any property . . . in which [the tax
delinquent] has any right, title or interest”—that is, when
identifying assets to be sold in order to satisfy the lien—the
United States “steps into the taxpayer’s shoes” and “acquires
whatever rights the taxpayer himself possesses.” United
States v. Nat’l Bank of Commerce, 472 U.S. 713, 725 (1985)
(internal quotation marks omitted). 10 Among the rights that
Komron possessed vis-à-vis the BECU Deed of Trust was
the ability to assert the defense that some past-due payments
10
Although National Bank of Commerce concerned the ability of
the United States to reach funds from a bank account in which the tax
delinquent had a shared contractual right to withdraw and was based on
a tax levy rather than a lien action, the Supreme Court’s statement that
the United States “steps into the taxpayer’s shoes” cited to the section of
Rodgers relating to § 7403. 472 U.S. at 725.

A-19

Case: 18-35956, 11/13/2020, ID: 11891597, DktEntry: 69-1, Page 20 of 20

20

UNITED STATES V. ALLAHYARI

are barred by the six-year statute of limitations. Once the
United States stepped into Komron’s shoes, via a § 7403
action, there became no reason why it could not assert that
defense.
Shaun argues, as he did below, that the United States
cannot assert the statute-of-limitations defense because it
lacks standing to do so, citing cases relating to third-party
enforcement of contracts. This argument is unavailing. The
United States is no longer a stranger to the contract between
Shaun and Komron. Because the district court determined
that the United States has a “claim or interest” in the
property, the United States is now standing in Komron’s
place relative to any encumbrances upon the property.
Although Komron might have chosen not to assert such a
defense against his father, there is no legal basis to deny that
ability to the United States once it has exercised its rights
under § 7403.
Because the district court did not consider the effect of
the six-year statute of limitations when calculating the value
of Shaun’s senior lien under the BECU Deed of Trust, we
remand for the district court to properly recalculate the
value.
CONCLUSION
For the foregoing reasons, we reverse the district court
and remand for the district court to apply the correct standard
of proof and to recalculate the value of the senior lien, taking
into account any statute of limitations defense raised by the
United States regarding Washington’s six-year statute of
limitations.
REVERSED and REMANDED.

A-20

APPENDIX B

Case 2:17-cv-00668-TSZ Document 94 Filed 09/13/18 Page 1 of 24

1
2
3
4
5

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

6
7

UNITED STATES OF AMERICA,

8
9
10
11

Plaintiff,
C17-668 TSZ

v.
FINDINGS OF FACT AND
CONCLUSIONS OF LAW

KOMRON M. ALLAHYARI and
SHAUN ALLAHYARI,
Defendants.

12
13

THIS MATTER came on for a bench trial on September 5, 2018. The plaintiff

14 was represented by Yael Bortnick and Nithya Senra, attorneys for the U.S. Department of
15 Justice, Tax Division. Defendant Shaun Allahyari was present and represented by Avi
16 Lipman and Curtis Isacke of McNaul Ebel Nawrot & Helgren PLLC. Defendant Komron
17 Allahyari appeared pro se. At the conclusion of trial, the Court took the matter under
18 advisement.
19

The IRS filed this action on April 28, 2017. On June 21, 2017, Shaun Allahyari

20 and Komron Allahyari filed their Answer. On July 2, 2018, a Stipulation for Entry of
21 Partial Judgment (the “Stipulated Judgment”) was entered, thereby reducing Komron
22 Allahyari’s tax debt to judgment (docket no. 50). The Stipulated Judgment resolved
23
FINDINGS OF FACT AND CONCLUSIONS OF LAW - 1

B-1

Case 2:17-cv-00668-TSZ Document 94 Filed 09/13/18 Page 2 of 24

1 Counts One, Two, and Three of the First Amended Complaint (docket no. 29). By
2 Minute Order dated July 30, 2018 (docket no. 62), the Court granted partial summary
3 judgment in favor of Shaun Allahyari upholding in first priority the Deed of Trust and
4 related promissory note (“2003 Deed of Trust”) assigned to Shaun Allahyari by the
5 Boeing Employees Credit Union (“BECU”), senior to the tax liens of the IRS. The Court
6 reserved for trial the determination of whether the 2005 Deed of Trust claimed by Shaun
7 Allahyari is a valid lien on the property, whether the 2005 Deed of Trust is entitled to
8 priority status relative to the IRS’s liens, and whether any interest that has accrued on the
9 amount paid by Shaun Allahyari to BECU to obtain the 2003 Deed of Trust is entitled to
10 priority over the IRS’s liens. Having heard the evidence and reviewed the exhibits
11 admitted at trial, the Court now makes the following findings and conclusions:
12

I. FINDINGS OF FACT

13

1.

Shaun and Kathryn Allahyari married in 1962. Pretrial Order, docket

14 no. 85, Admitted Fact (hereinafter “Admitted Fact”) ¶ 1.
15

2.

Shaun and Kathryn Allahyari have three children: Sandra, Komron, and

16 Karin. Id. ¶ 2.
17

3.

After Komron 1 graduated from law school, Shaun advised him to invest in

18 real estate. Id. ¶ 4.
19

4.

On April 22, 1991, Komron, Shaun, and Kathryn Allahyari acquired a

20 parcel of real property located at 3453 77th Place S.E., Mercer Island, Washington 98040
21
22

1

Throughout these Findings and Conclusions, the Court will refer to Shaun Allahyari and Komron
Allahyari by their first names in order to avoid confusion.

23
FINDINGS OF FACT AND CONCLUSIONS OF LAW - 2

B-2

Case 2:17-cv-00668-TSZ Document 94 Filed 09/13/18 Page 3 of 24

1 (the “Subject Property”) via a Statutory Warranty Deed. Id. ¶ 5; Ex. 3. The Court
2 incorporates by reference the legal description contained in the Statutory Warranty Deed.
3 Ex. 3.
4

5.

The initial purchase price for the Subject Property was $205,000, of which

5 the Allahyaris paid $40,000 as a down payment and borrowed the remainder. Id. ¶ 6.
6

6.

Shaun borrowed $40,000 for the down payment from a line of credit. Id.

7.

Shaun and Komron refer to the $40,000 as a loan from Shaun to Komron

7 ¶ 7.
8

9 (“$40,000 transfer”). Id. ¶ 8. At all times material, both Shaun and Komron understood
10 and agreed this was a loan and not a gift.
11

8.

A promissory note (the “Promissory Note”), which is dated March 29, 1991

12 states that “FOR VALUE RECEIVED ($50,000), Komron” promises to pay Shaun and
13 Kathryn Allahyari “the total sum of this note under the terms and conditions set forth
14 herein.” Id. ¶ 9, Ex. 4.
15

9.

16

2. PAYMENT: Payment shall be made at the above address via check by
Maker, upon the occurrence of one or more of the following contingencies:

The Promissory Note at paragraph 2 provides as follows:

17
18

2.1 The principal amount, repaid from Maker’s salary at Ulin Dann
and Lambe or if the subject real property is rented and there is “net”
rental income; or

19
20

2.2 If Maker starts his own practice, repaid from proceeds of his law
practice when the “net” income from the practice exceeds $100,000.

21 Admitted Fact ¶ 10, Ex. 4.
22
23
FINDINGS OF FACT AND CONCLUSIONS OF LAW - 3

B-3

Case 2:17-cv-00668-TSZ Document 94 Filed 09/13/18 Page 4 of 24

1

10.

In 2015, the IRS issued a summons to Shaun Allahyari, see Declaration of

2 David S. Choi, Ex. 24, to provide testimony and records related to the mortgage held by
3 Shaun with respect to the Subject Property.
4

11.

When Komron and Shaun were interviewed by Internal Revenue Officer

5 John Curt in 2015 in response to the summons described in paragraph 10 of these
6 Findings of Fact, they testified that no payments had ever been made from Komron to
7 Shaun and neither remembered the existence of the Promissory Note. Ex. 24.
8

12.

Komron worked for Ulin Dann and Lambe for one to two years after he

9 graduated from law school until the firm split up in the early 1990s. Admitted Fact ¶ 11.
10

13.

Komron started his own practice in January or February of 1993. Id. ¶ 13.

11

14.

Komron made no payments to Shaun for the $40,000 transfer until 1998.

12 Admitted Fact ¶ 18.
13

15.

During the years following the execution of the Promissory Note, however,

14 Shaun regularly requested repayment by Komron.
15

16.

In 1998, Komron settled a large case, for which he received $435,000 in

16 attorney’s fees. Id. ¶ 19.
17

17.

After receiving the $435,000 in fees, Komron asked Shaun how much he

18 owed Shaun for the $40,000 transfer. Id. ¶ 20.
19

18.

Shaun told Komron to pay, and Komron paid Shaun $1,069.55 on

20 March 12, 1998, $36,637.46 on June 25, 1998, and $200 on July 9, 1998. Id. ¶ 21.
21
22
23
FINDINGS OF FACT AND CONCLUSIONS OF LAW - 4

B-4

Case 2:17-cv-00668-TSZ Document 94 Filed 09/13/18 Page 5 of 24

1

19.

Both Shaun and Komron understood that these payments represented

2 partial repayment of loans made by Shaun to Komron. Neither party intended these
3 payments to represent full satisfaction of the debt.
4

20.

After Komron made the payments described in paragraph 18, Shaun and

5 Kathryn transferred their joint interest in the Subject Property to Komron via quitclaim
6 deed, and the property was then solely owned by Komron. Admitted Fact ¶ 22; Ex. 8.
7 From September 10, 1999, until at least August 31, 2018, the Subject Property has
8 remained in Komron’s name.
9

21.

Beginning in January 2000, Shaun made a series of additional transfers to

10 Komron (the “post-2000 transfers”). Id. ¶ 23; Ex. 101. At all times material Shaun and
11 Komron intended these post-2000 transfers to be loans and not gifts. The Court makes no
12 finding as to the total amount of the loans and repayments between Shaun and Komron or
13 the accuracy of Exhibits 101 and 102.
14

22.

Shaun borrowed from lines of credit he had with US Bank and Washington

15 Mutual Bank to make the loans to Komron. Admitted Fact ¶ 24.
16

23.

Komron’s financial status in 2000 and thereafter was not good: he had

17 borrowed significant sums against the Subject Property, and he was unable to make
18 payments owed on various debts and business obligations without loans or assistance
19 from his father. During trial, Komron explained that he had invested heavily in the stock
20 market, lost substantial amounts of money, and took out additional loans to obtain more
21 money to invest. He also explained that during this time he was sometimes unable to
22 make payments or meet other expenses—for example, Komron received a series of loans
23
FINDINGS OF FACT AND CONCLUSIONS OF LAW - 5

B-5

Case 2:17-cv-00668-TSZ Document 94 Filed 09/13/18 Page 6 of 24

1 from his father in order to meet his payroll obligations to his employees. By about 2005,
2 Komron owed the IRS more than a million dollars in taxes, penalties, and interest.
3

24.

An “Addendum and Promissory Note,” (“2000 Addendum”), dated

4 February 25, 2000, states as follows: “Komron Allahyari (‘Maker’) currently owes Shaun
5 Allahyari (‘Holder’) certain monies with interest (12 percent) to be calculated under a
6 previous Promissory Note dated March 1991 (‘Original Note’), but Maker desires to
7 obtain additional loans on the account under the terms and conditions set forth herein. . . .
8 Payment shall be made under the terms of the Original Note with the same 12 percent
9 interest rate on any subsequent loans.” Admitted Fact ¶ 25, Ex. 9.
10

25.

Shaun was always concerned with being repaid for the loans he made to his

11 son, but he was also concerned with seeing Komron succeed in his legal practice and
12 other business endeavors.
13

26.

In 2003, Komron took out a $400,000 loan from the Boeing Employees’

14 Credit Union (“BECU Loan”), which was secured by a Deed of Trust (“BECU Deed”) on
15 the Subject Property. Admitted Fact ¶ 27; Ex. 10.
16

27.

The BECU Loan included an Adjustable Rate Rider. Admitted Fact ¶ 30.

17

28.

According to the Adjustable Rate Rider, the BECU note provided for an

18 initial interest rate of 4.375%, which could change on September 1, 2006, and every
19 twelve months thereafter. Id. ¶ 31; Ex. 10.
20

29.

The amount of interest was tied to the weekly average yield on 1-year

21 United States Treasury securities, and could never increase or decrease by more than two
22 percentage points in any year. Admitted Fact ¶ 32; Ex. 10.
23
FINDINGS OF FACT AND CONCLUSIONS OF LAW - 6

B-6

Case 2:17-cv-00668-TSZ Document 94 Filed 09/13/18 Page 7 of 24

1

30.

The interest rate could never exceed 10.375% and did not establish a

2 minimum interest rate after the first “Change Date” of September 1, 2006. Admitted Fact
3 ¶ 33; Ex. 10.
4

31.

The Adjustable Rate Rider requires written notice be given to the borrower

5 before a change is made to the payment amount. Admitted Fact ¶ 34.
6

32.

The BECU Loan had a fixed schedule for repayments, with a maturity date

7 of September 1, 2033. Id. ¶ 35.
8

33.

Komron filed his IRS Forms 1040 (U.S. Individual Income Tax Return) for

9 tax years 1999-2002 and 2004 in April 2005. Id. ¶ 36. Prior to the spring of 2005,
10 Komron never told Shaun that he had failed to file tax returns and that he had incurred
11 significant tax liability in those years.
12

34.

Komron’s Forms 1040 filed in 2005 showed taxes owing, but he did not

13 submit payment with his returns. Id. ¶ 37.
14

35.

The IRS made timely assessments against Komron for unpaid income

15 taxes, trust fund recovery penalties, interest, and other statutory additions in the following
16 amounts. Id. ¶ 38.
17
18
19
20
21

Tax
Period Ending
12/31/1999

Tax Type
Form 1040

Assessment
Date
07/25/2005
“
“
“
“
11/11/2013

22
23
FINDINGS OF FACT AND CONCLUSIONS OF LAW - 7

B-7

Assessment Amount and
Type of Assessment
Tax Assessed
$22,270.00
Estimated Tax Penalty
$ 861.98
Late Filing Penalty
$4,135.50
Failure to Pay Tax Penalty
$4,595.00
Interest Assessed
$ 8,401.20
Interest Assessed
$ 18,760.81

Case 2:17-cv-00668-TSZ Document 94 Filed 09/13/18 Page 8 of 24

1
2

Tax
Period Ending
12/31/2000

Tax Type
Form 1040

12/31/2001

Form 1040

12/31/2002

Form 1040

12/31/2004

Form 1040

12/31/2005

Form 1040

12/31/2006

Form 1040

3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19

Assessment
Date
08/01/2005
“
“
“
“
11/11/2013
05/30/2005
“
“
“
“
11/09/2009
11/11/2013
05/23/2005
“
“
“
10/24/2005
11/09/2009
11/11/2013
07/13/2015
11/09/2015
05/23/2005
“
“
11/08/2010
11/11/2013
02/18/2008
“
11/08/2010
11/11/2013
11/26/2007
“
“
“
11/08/2010
11/11/2013

20
21
22
23
FINDINGS OF FACT AND CONCLUSIONS OF LAW - 8

B-8

Assessment Amount and
Type of Assessment
Tax Assessed
$ 60,603.00
Estimated Tax Penalty
$ 1,056.25
Late Filing Penalty
$ 13,533.30
Failure to Pay Penalty
$ 15,037.00
Interest Assessed
$ 18,825.03
Interest Assessed
$ 56,001.61
Tax Assessed
$ 63,009.00
Estimated Tax Penalty
$ 2,447.00
Late Filing Penalty
$ 14,177.02
Failure to Pay Penalty
$ 11,971.71
Interest Assessed
$ 12,665.70
Failure to Pay Penalty
$ 3,780.54
Interest Assessed
$ 55,967.57
Tax Assessed
$454,994.00
Late Filing Penalty
$102,373.65
Failure to Pay Penalty
$59,149.22
Interest Assessed
$56,210.15
Fees and Collection Costs
$77.28
Failure to Pay Penalty
$54,599.28
Interest Assessed
$366,561.03
Fees and Collection Costs
$1,762.00
Fees and Collection Costs
$196.00
Tax Assessed
$141,692.00
Failure to Pay Penalty
$1,416.92
Interest Assessed
$887.79
Failure to Pay Penalty
$34,006.08
Interest Assessed
$80,233.44
Additional Tax Assessed
$1,023.00
Interest Assessed
$158.79
Failure to Pay Penalty
$253.02
Interest Assessed
$322.29
Tax Assessed
$386,959.00
Estimated Tax Penalty
$709.12
Failure to Pay Penalty
$14,142.12
Interest Assessed
$17,870.56
Failure to Pay Penalty
$74,246.13
Interest Assessed
$112,806.47

Case 2:17-cv-00668-TSZ Document 94 Filed 09/13/18 Page 9 of 24

1
2

Tax
Period Ending
12/31/2007

Tax Type
Form 1040

12/31/2008

Form 1040

12/31/2009

Form 1040

12/31/2011

Form 1040

12/31/2012

Form 1040

12/31/2013

Form 1040

03/31/2000

§ 6672

3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

Assessment
Date
12/08/2008
“
“
“
“
02/09/2009
11/08/2010
11/11/2013
“
11/23/2009
“
“
“
“
11/11/2013
“
12/06/2010
“
“
“
“
04/18/2011
08/15/2011
11/11/2013
“
11/19/2012
“
“
“
03/04/2013
10/21/2013
“
“
“
08/11/2014
“
03/23/2015
12/01/2014
“
“
“
12/19/2005
01/08/2007
09/15/2008
09/22/2008
11/11/2013

23
FINDINGS OF FACT AND CONCLUSIONS OF LAW - 9

B-9

Assessment Amount and
Type of Assessment
Tax Assessed
$47,512.00
Estimated Tax Penalty
$1,405.39
Late Filing Penalty
$1,823.89
Failure to Pay Penalty
$1,621.24
Interest Assessed
$1,516.03
Fees and Collection Costs
$130.00
Failure to Pay Penalty
$4,661.06
Interest Assessed
$9,585.21
Failure to Pay Penalty
$3,850.44
Tax Assessed
$40,838.00
Estimated Tax Penalty
$990.53
Late Filing Penalty
$1,799.50
Failure to Pay Penalty
$1,599.56
Interest Assessed
$992.46
Interest Assessed
$6,561.01
Failure to Pay Penalty
$8,397.68
Tax Assessed
$256,719.00
Estimated Tax Penalty
$1,195.00
Late Filing Penalty
$11,552.35
Failure to Pay Penalty
$10,268.76
Interest Assessed
$6,762.91
Fees and Collection Costs
$124.00
Failure to Pay Penalty
$10,268.76
Interest Assessed
$28,862.29
Failure to Pay Penalty
$34,657.06
Tax Assessed
$43,827.00
Estimated Tax Penalty
$2.00
Failure to Pay Penalty
$1,753.08
Interest Assessed
$790.14
Fees and Collection Costs
$110.00
Tax Assessed
$35,666.00
Estimated Tax Penalty
$639.00
Failure to Pay Penalty
$1,426.64
Interest Assessed
$704.53
Interest Assessed
$781.80
Failure to Pay Penalty
$2,318.29
Fees and Collection Costs
$190.00
Tax Assessed
$44,193.00
Estimated Tax Penalty
$783.00
Failure to Pay Penalty
$1,767.72
Interest Assessed
$843.34
Trust Fund Recovery Penalty $4,561.47
Fees and Collection Cost
$128.00
Fees and Collection Costs
$84.00
Fees and Collection Costs
$222.00
Interest Assessed
$2,290.90

Case 2:17-cv-00668-TSZ Document 94 Filed 09/13/18 Page 10 of 24

1
2

Tax
Period Ending
06/30/2000

Tax Type
§ 6672

3

09/30/2000

§ 6672

4

12/31/2000

§ 6672

03/31/2001

§ 6672

06/30/2001

§ 6672

09/30/2001

§ 6672

12/31/2001

§ 6672

03/31/2002

§ 6672

9

06/30/2002

§ 6672

10

09/30/2002
12/31/2002
03/31/2003
06/30/2003
09/30/2003
12/31/2003
03/31/2004
06/30/2004
09/30/2004
12/31/2004
03/31/2005
06/30/2005

§ 6672
§ 6672
§ 6672
§ 6672
§ 6672
§ 6672
§ 6672
§ 6672
§ 6672
§ 6672
§ 6672
§ 6672

5
6
7
8

11
12
13
14
15
16
17
18
19
20
21
22

36.

Assessment
Date
12/19/2005
11/11/2013
12/19/2005
11/11/2013
12/19/2005
11/11/2013
12/19/2005
11/11/2013
12/19/2005
11/11/2013
12/19/2005
11/11/2013
12/19/2005
11/11/2013
12/19/2005
11/11/2013
12/19/2005
11/11/2013
12/19/2005
12/19/2005
12/19/2005
12/19/2005
12/19/2005
12/19/2005
12/19/2005
12/19/2005
12/19/2005
12/19/2005
12/19/2005
12/19/2005

Assessment Amount and
Type of Assessment
Trust Fund Recovery Penalty $8,857.80
Interest Assessed
$4,233.57
Trust Fund Recovery Penalty $7,787.98
Interest Assessed
$3,722.24
Trust Fund Recovery Penalty $7,625.42
Interest Assessed
$3,644.55
Trust Fund Recovery Penalty $8,152.07
Interest Assessed
$3,896.25
Trust Fund Recovery Penalty $8,768.26
Interest Assessed
$4,190.76
Trust Fund Recovery Penalty $7,248.18
Interest Assessed
$3,464.26
Trust Fund Recovery Penalty $10,300.50
Interest Assessed
$4,923.10
Trust Fund Recovery Penalty $14,143.78
Interest Assessed
$6,760.00
Trust Fund Recovery Penalty $13,758.21
Interest Assessed
$6,575.70
Trust Fund Recovery Penalty $11,292.47
Trust Fund Recovery Penalty $15,515.74
Trust Fund Recovery Penalty $12,623.06
Trust Fund Recovery Penalty $10,714.31
Trust Fund Recovery Penalty $11,429.95
Trust Fund Recovery Penalty $13,593.27
Trust Fund Recovery Penalty $11,075.32
Trust Fund Recovery Penalty $13,577.70
Trust Fund Recovery Penalty $14,805.35
Trust Fund Recovery Penalty $21,019.23
Trust Fund Recovery Penalty $16,618.73
Trust Fund Recovery Penalty $7,028.11

Despite proper notice and demand for payment of the assessments, Komron

has neglected, failed, or refused to make payment in full of the assessed amounts to the
United States. Id. ¶39.
37.

There remains due and owing the sum of $3,910,470.35 plus accrued

statutory interest and additions from June 14, 2018, less payments or credits. Komron
has stipulated to Judgment in this action for the full amount of the assessments. Id. ¶ 40.
A partial judgment has now been entered against Komron for these amounts.

23
FINDINGS OF FACT AND CONCLUSIONS OF LAW - 10

B-10

Case 2:17-cv-00668-TSZ Document 94 Filed 09/13/18 Page 11 of 24

1

38.

For each tax period, a federal tax lien arose and became choate on the date

2 of assessment. Federal tax liens arose and attached to the Subject Property on May 23,
3 2005, for tax years 2002 and 2004, on May 30, 2005, for tax year 2001, and on July 25,
4 2005, for tax year 1999. Id. ¶ 38.
5

39.

Komron filed his federal income tax returns for 1999-2002 and 2004, which

6 reported large balances due, and told Shaun that he had outstanding tax liabilities. Id.
7 ¶ 41.
8

40.

Shaun was concerned that the United States would be able to foreclose its

9 tax liens on the Subject Property. Id. ¶ 42.
10

41.

A Deed of Trust was recorded on July 26, 2005 (hereinafter, the “2005

11 Deed of Trust”). Ex. 13. The 2005 Deed of Trust purports to secure payment of
12 $471,322.00 at 12 percent interest. Id.
13

42.

In both his deposition and at trial, Shaun testified that he paid no money to

14 Komron at or around the time of the 2005 Deed of Trust. Transcript of Deposition of
15 Shaun Allahyari, docket no. 41-1, p. 30.
16

43.

Shaun executed the 2005 Deed of Trust to “make sure [he was] going to be

17 ahead of the IRS.” Because he knew Komron was delinquent on his taxes and that the
18 IRS wanted payment, Shaun retained an attorney who advised him that “the IRS is going
19 to come and take the house and so you’re going to lose your interests in the house” and
20 recommended a deed of trust.
21

44.

Komron informed his father of his tax liabilities prior to the 2005 Deed of

22 Trust, and Komron believed Shaun “was informed about the tax liabilities and was
23
FINDINGS OF FACT AND CONCLUSIONS OF LAW - 11

B-11

Case 2:17-cv-00668-TSZ Document 94 Filed 09/13/18 Page 12 of 24

1 concerned of the consequences of those liabilities.” 2 Transcript of Deposition of Komron
2 Allahyari, docket no. 41-1, p. 65 (“In general I would say at some point I alerted my
3 father to the fact that I had tax problems. I owed a lot of taxes. I owed a lot of money to
4 the IRS, and I recall him being almost immediately concerned about the IRS being able to
5 take the home that he had, you know, used as security for his loans. I think he even asked
6 me can they take your home, and I said well, maybe. I don’t know. So he asked – I think
7 he asked me, what – do I have security on the home? How do I get it?”).
8

45.

Prior to obtaining the 2005 Deed of Trust, Shaun believed Komron owed a

9 “lot” of money to the IRS. He believed the tax liability might exceed $1,000,000.
10

46.

On October 4, 2005, the first Notice of Federal Tax Lien was filed in King

11 County, Washington, against Komron M. Allahyari and Leslie R. Cover (Komron’s then12 spouse) that listed their federal income tax liabilities for tax years 1999-2001, 2002, and
13 2004. Additional Notices of Federal Tax Lien were filed in King County on the dates
14 and for the periods stated in the United States’ First Amended Complaint. Admitted Fact
15 ¶ 44; Ex. 30.
16

47.

In 2010, Shaun learned that Komron was defaulting on the BECU Deed and

17 was at risk of losing the Subject Property. Admitted Fact ¶ 45.
18
19

2

The Court finds Komron’s trial testimony not credible to the extent he minimized his own involvement
in drafting the 2005 Deed of Trust and to the extent he suggested the transfer was done without intent to
20 hinder, delay, or defraud the United States. Komron lied to his own father regarding the extent of his
financial troubles in the 1990s and early 2000s, he lied to his own lawyer regarding the existence of the
21 1991 Promissory Note (Ex. 155), and he continues to offer conflicting accounts of his involvement in
drafting the 2005 Deed of Trust (compare docket no. 41-1, p. 65-66 (“[Jamie Olander] and I kind of
22 worked [the deed of trust] up and then showed my father and then we filed it.”) with his testimony at trial
that he had no involvement in the preparation of the Deed of Trust).

23
FINDINGS OF FACT AND CONCLUSIONS OF LAW - 12

B-12

Case 2:17-cv-00668-TSZ Document 94 Filed 09/13/18 Page 13 of 24

1

48.

Shaun borrowed money in order to pay off the BECU Loan and take an

2 assignment of that loan in order to prevent foreclosure of the Subject Property. Id. ¶ 46.
3 Shaun also was aware of Komron’s outstanding tax liabilities and that Komron had
4 defaulted on the BECU Loan—resulting in multiple foreclosure proceedings.
5

49.

A “Second Addendum to Promissory Note” is dated August 15, 2010

6 (“2010 Addendum”). Admitted Fact ¶ 48; Ex. 16.
7

50.

8

Shaun Allahyari hereby desires to take an assignment of the mortgage on the
real property and pay off the prior mortgage (BECU) to protect Shaun’s
interest in the 2005 Deed of Trust.

9
10
11

The 2010 Addendum states,

Komron agrees that any funds Shaun Allahyari pays to take an assignment
of the prior mortgage with BECU is to be considered part of the ongoing
loans to Komron and will be paid back at 12 percent interest under the terms
of the previous Promissory Note(s).

12
Admitted Fact ¶49; Ex. 16.
13
51.

An Assigmnent of Deed of Trust was recorded on September 8, 2010

14
(“2010 Assignment”). Admitted Fact ¶ 50; Ex. 14.
15
52.

Shaun never gave Komron written notice of a change in the interest rate for

16
the BECU Loan.
17
53.

Komron stopped taking new cases and wound down his law practice in

18
spring or summer 2010. He resigned from the Washington State Bar Association in lieu
19
of disbarment in 2011.
20
54.

Komron currently resides in an apartment owned by Shaun, and pays no

21
rent to Shaun for the apartment other than working part-time for Shaun.
22
23
FINDINGS OF FACT AND CONCLUSIONS OF LAW - 13

B-13

Case 2:17-cv-00668-TSZ Document 94 Filed 09/13/18 Page 14 of 24

1

55.

Komron and Shaun were summoned to appear before IRS Revenue Officer

2 John Curt in summer 2015 to testify regarding Shaun’s interest in the Subject Property.
3 Ex. 24. Komron and Shaun told Curt that no written contract existed between Shaun and
4 Komron for any of the amounts transferred from Shaun to Komron. Id. 3 Shaun also told
5 Curt that no specific amount of repayment was discussed but payment was to be made at
6 some point in the future. Id. Shaun explained to Curt that he originally required a 12%
7 interest rate but lowered the interest rate to 8% to give Komron a break. Id.
8

II. CONCLUSIONS OF LAW

9

1.

Any Conclusion of Law denominated as a Finding of Fact shall be deemed

10 a Conclusion of Law and any Finding of Fact denominated as a Conclusion of Law shall
11 be deemed a Finding of Fact.
12

2.

The Court has jurisdiction over this action pursuant to 28 U.S.C. §§ 1340

13 and 1345, and 26 U.S.C. § 7402.
14

3.

Venue is proper in this Court pursuant to 28 U.S.C. §§ 1391(b) and 1396

15 because defendants reside in this district and the Subject Property is located in this
16 district.
17

4.

The United States has established that, on the various dates of assessment,

18 valid liens in favor of the United States arose against Komron M. Allahyari and attached
19
20
21
3

At trial, Shaun testified that he did not remember his interview with John Curt. Therefore, Shaun’s trial
testimony
is not credible to the extent he attempts to dispute the accuracy of Curt’s notes regarding that
22
interview.

23
FINDINGS OF FACT AND CONCLUSIONS OF LAW - 14

B-14

Case 2:17-cv-00668-TSZ Document 94 Filed 09/13/18 Page 15 of 24

1 to all of his property and rights to property, whether real or personal, including the
2 Subject Property at issue in this case. 26 U.S.C. § 6321.
3

5.

The tax lien continues in full force until the liability is paid in full or

4 becomes unenforceable due to the lapse of time. 26 U.S.C. § 6322.
5

6.

The Court finds that the transfers from Shaun to Komron beginning in 1991

6 through 2005 were bona fide loans, not gifts. The Promissory Note and Addenda
7 underlying the 2005 Deed of Trust do not contain illusory promises to pay. Repayment
8 was not solely within Komron’s discretion, and the contingencies requiring repayment
9 occurred. Shaun regularly and repeatedly requested repayment. See Vancouver Clinic,
10 Inc. v. United States, 2013 WL 1431656, at *2 (W.D. Wash. Apr. 9, 2013) (holding that
11 for a transaction to constitute a bona fide loan, “there must be an unconditional promise
12 to repay at the time the funds are advanced”) (citations omitted).
13

7.

Komron repaid significant sums to Shaun between 1991 and 2005

14 providing additional evidence that the transfers were bona fide loans. Ex. 102; Calumet
15 Indus., Inc. & Subsidiaries v. Comm’r, 95 T.C. 257, 286 (1990); Van Anda v. Comm’r, 12
16 T.C. 1158, 1162 (1949); In re Estate of Miller, 134 Wn. App. 885, 895, 143 P.3d 315
17 (2006).
18

8.

Under 26 U.S.C. § 6321, a lien arises in favor of the United States “upon all

19 property and rights to property, whether real or personal,” belonging to a taxpayer who
20 has refused or neglected to pay tax after demand.
21
22
23
FINDINGS OF FACT AND CONCLUSIONS OF LAW - 15

B-15

Case 2:17-cv-00668-TSZ Document 94 Filed 09/13/18 Page 16 of 24

1

9.

The lien arises “at the time the assessment is made” and continues “until

2 the liability for the amount so assessed . . . is satisfied or becomes unenforceable by
3 reason of lapse of time.” 26 U.S.C. § 6322.
4

10.

Tax liens arising from assessments are enforceable without the recording of

5 a notice of lien and have priority over all interests in property acquired after the
6 attachment of the tax liens, except as provided by 26 U.S.C. § 6323(a). United States v.
7 City of New Britain, 347 U.S. 81, 84 (1954) (federal tax liens are choate and perfected
8 under federal law as soon as they arise upon assessment).
9

11.

In general, federal law follows the principle that first in time is first in right.

10 However, another statute, 26 U.S.C. § 6323, protects certain third parties from the effect
11 of the government’s automatic lien. It provides that a federal tax lien “shall not be valid
12 as against any purchaser, holder of a security interest, mechanic’s lienor, or judgment lien
13 creditor until” notice of the lien is duly recorded. 26 U.S.C. § 6323(a). The only
14 category of Section 6323(a) into which Shaun could possibly fall is that of “holder of
15 security interest.”
16

12.

The United States’ federal tax liens for tax years 1999, 2001, 2002, and

17 2004 arose before the 2005 Deed of Trust was filed and therefore are entitled to priority
18 unless Shaun is entitled to the protection of 26 U.S.C. § 6323(a).
19

13.

A person seeking protection from federal tax liens under 26 U.S.C.

20 § 6323(a) has the burden of showing that he qualifies for that protection. In re Nerland
21 Oil, Inc., 303 F.3d 911, 920 (8th Cir. 2002). Shaun has failed to establish that he
22 qualifies for that protection.
23
FINDINGS OF FACT AND CONCLUSIONS OF LAW - 16

B-16

Case 2:17-cv-00668-TSZ Document 94 Filed 09/13/18 Page 17 of 24

1

14.

A security interest exists only where (1) the interest was “acquired by

2 contract for the purpose of securing payment or performance of an obligation or
3 indemnifying against loss or liability”; (2) the interest is “protected under local law
4 against a subsequent judgment lien arising out of an unsecured obligation”; and (3) the
5 interest holder “parted with money or money’s worth.” 26 U.S.C. § 6323(h)(1); see also
6 Treas. Reg. § 301.6323(h)-1(a)(1)(i)-(ii).
7

15.

The 2005 Deed of Trust is not entitled to priority over the federal tax liens

8 because Shaun cannot meet his burden to show that he is a holder of a security interest
9 for two reasons.
10

16.

First, the 2005 Deed of Trust is not entitled to priority under local law with

11 respect to the tax liens described in Findings of Fact 35-38 because Shaun had actual
12 and/or constructive knowledge of Komron’s tax liabilities prior to recording the 2005
13 Deed of Trust. Kim v. Lee, 31 P.3d 665, 668, as amended (Dec. 12, 2001), opinion
14 corrected, 43 P.3d 1222 (Wash. 2001). Shaun and Komron both testified that the purpose
15 of drafting, executing, and recording the 2005 Deed of Trust was to get ahead of the IRS
16 with respect to Shaun’s interest in the Subject Property.
17

17.

Second, Shaun did not part with money or money’s worth in connection

18 with the granting or recording of the 2005 Deed of Trust. While the 2005 Deed of Trust
19 purported to secure preexisting debts, Shaun did not contemporaneously part with money
20 or money’s worth. United States v. 3809 Crain Ltd. P’ship, 884 F.2d 138, 143 (4th Cir.
21
22
23
FINDINGS OF FACT AND CONCLUSIONS OF LAW - 17

B-17

Case 2:17-cv-00668-TSZ Document 94 Filed 09/13/18 Page 18 of 24

1 1989); In re Marine Energy Sys. Corp., 2009 WL 1465352, at * 13 (Bankr. D.S.C.
2 Mar. 24, 2009), aff’d, 430 B.R. 348 (D.S.C. 2010). 4
3

18.

Because Shaun does not qualify as a holder of a security interest, he is not

4 entitled to the protection of 26 U.S.C. § 6323. As a result, the United States is entitled to
5 priority for the tax liens that arose before the 2005 Deed of Trust was recorded.
6

19.

Separately, the Subject Property was fraudulently encumbered by Komron

7 Allahyari with the 2005 Deed of Trust. The encumbrance is voidable under
8 Washington’s Uniform Fraudulent Transfer Act because Komron intended to “hinder,
9 delay, or defraud” the United States. RCW § 19.40.041(a)(1).
10

20.

The Court finds that the majority of factors under RCW § 19.40.041(a)(1)

11 support the conclusion that Komron acted to hinder, delay, and defraud the United States.
12

a. The transfer was made to an insider – Komron’s father.

13

b. Komron retained possession of the property at the time of and after the

14

transfer. In later years, although Komron moved out of the Subject

15

Property, his immediate family members—also relatives of Shaun’s—

16

remain in possession.

17
18
19

4

Defendants also raised at trial a new argument that the 1991 Promissory Note, standing alone, was
sufficient security to establish priority over the unrecorded federal tax liens. That argument is not well20 taken. The Promissory Note was executed prior to closing on the Subject Property, indicating that the
parties were in no position to transfer any interest in the property or otherwise encumber the property.
21 That the 1991 Promissory Note apparently sought to grant Shaun a right to later file and record a security
interest in the Subject Property is not the equivalent of actually transferring a security interest. RCW
22 § 64.04.010 (“Every conveyance of real estate, or any interest therein, and every contract creating or
evidencing any encumbrance upon real estate, shall be by deed . . . .”).

23
FINDINGS OF FACT AND CONCLUSIONS OF LAW - 18

B-18

Case 2:17-cv-00668-TSZ Document 94 Filed 09/13/18 Page 19 of 24

1

c. Komron concealed documents he now claims are related to the transfer

2

(e.g., the 1991 Promissory Note) from the IRS during administrative

3

proceedings. 5

4

d. The transfer was of substantially all of Komron’s assets. Komron was

5

already deeply in debt and unable to make various payments as they

6

became due in the early 2000s. See Finding of Fact 21. By 2003, his

7

position had worsened, and he had taken out another mortgage against

8

the Subject Property, which was the same property Komron used as

9

security for the 2005 Deed of Trust.

10

e. The transfer occurred after Komron was threatened with legal action by

11

the IRS. It would have been abundantly clear to Komron that

12

enforcement proceedings were likely, and that a civil action could result

13

from his failure to pay taxes. The Court finds and concludes the 2005

14

Deed of Trust was prepared and filed for the express purpose of

15

attempting to gain priority over the IRS with respect to the Subject

16

Property.

17

f. The transfer occurred shortly before and shortly after a substantial debt

18

was incurred—i.e. the tax liabilities at issue, which were assessed both

19

shortly before and shortly after the 2005 Deed of Trust was filed.

20
21
22

5

Komron’s testimony that he simply forgot about the 1991 Promissory Note and the 2005 Deed of Trust
when interviewed by IRS officers is not credible.

23
FINDINGS OF FACT AND CONCLUSIONS OF LAW - 19

B-19

Case 2:17-cv-00668-TSZ Document 94 Filed 09/13/18 Page 20 of 24

1

g. At the time of the transfer, Komron was generally not paying his debts

2

as they became due, and under Washington law he was presumptively

3

insolvent. RCW § 19.40.021(2).

4

21.

Plaintiff has established the elements of a fraudulent transfer by a

5 preponderance of the evidence.
6

22.

That the transfer purported to be made in connection with a preexisting

7 obligation (i.e. the 1991 Note) does not outweigh the evidence demonstrating a fraudulent
8 transfer. Martin v. McEvoy, 1996 WL 335996 (Wash. Ct. App. June 17, 1996); see also
9 In re Fleming, 1997 WL 111302, at *8 (Bankr. D. Md. Jan. 7, 1997) (involving similar
10 factors under Maryland law and similar facts such as ongoing dependence on family
11 members for financial support, negligible assets at the time of the transfer, tax liabilities
12 pending at the time of the transfer, and the debtor remaining in possession after the
13 transfer).
14

23.

Because the encumbrance was recorded by Komron and Shaun with the

15 actual intent to hinder, delay, or defraud the United States it is voidable and is subject to
16 being set aside. United States v. Sygitowicz, 2016 WL 3438489 (W.D. Wash. June 23,
17 2016); United States v. Smith, 2012 WL 1977964 at *6 (W.D. Wash. June 1, 2012);
18 United States v. Black, 725 F. Supp. 2d 1279, 1292 (E.D. Wash. July 16, 2010); see also
19 Clearwater v. Skyline Const. Co., Inc., 67 Wash. App. 305, 317 (Wash. Ct. App. Aug. 31,
20 1992) (“A creditor’s remedies for fraudulent transfer include, inter alia, avoidance of the
21 transfer or the attachment of the transferred property.”).
22
23
FINDINGS OF FACT AND CONCLUSIONS OF LAW - 20

B-20

Case 2:17-cv-00668-TSZ Document 94 Filed 09/13/18 Page 21 of 24

1

24.

Because the Court concludes that the 2005 Deed of Trust is not entitled to

2 priority over the federal tax liens pursuant to 26 U.S.C. § 6323 and is separately voidable
3 as a fraudulent transfer under RCW 19.40.041, the Court need not determine whether
4 Shaun is entitled to simple or compound interest on the 2005 Deed of Trust. Nor does the
5 Court need to determine the precise amount of the debt purportedly secured by the 2005
6 Deed of Trust, other than to conclude that any security would not be prior to the BECU
7 Loan and the federal tax liens, respectively.
8

25.

Shaun is entitled to priority over the United States’ federal tax liens with

9 respect to interest that has accrued on the amount Shaun paid to BECU.
10

26.

Shaun stepped into BECU’s “shoes” when he purchased the BECU Loan.

11 The Court finds that the actual substance of the assignment indicates a bona fide debt,
12 which Shaun and Komron intended to be repaid. Because Shaun never provided Komron
13 with written notice of any change in the applicable interest rate, he has not proven that he
14 is entitled to a rate any different than the 4.125% rate in effect at the time of assignment.
15 Ex. 110.
16

27.

The total interest on the BECU Loan is $127,721.52 as of September 30,

17 2018, calculated at 4.125% annually.
18

28.

Shaun did not modify the BECU Loan in any manner materially prejudicial

19 to the United States’ interests in the Subject Property. He neither changed the interest
20
21
22
23
FINDINGS OF FACT AND CONCLUSIONS OF LAW - 21

B-21

Case 2:17-cv-00668-TSZ Document 94 Filed 09/13/18 Page 22 of 24

1 rate, nor modified the terms of the Loan in other ways that have substantially impaired
2 the United States’ interests or effectively destroyed its equity. 6
3

29.

The Court makes no conclusion regarding whether Shaun is entitled to

4 recover attorney’s fees from Komron for work related to the BECU Loan. Regardless,
5 Shaun has not argued—let alone proven—that those fees would be entitled to priority
6 over the United States’ tax liens. The Court concludes that Shaun is not entitled to
7 attorney’s fees against the United States in connection with the BECU Loan and this
8 litigation.
9

30.

Under 26 U.S.C. § 7403, once it is established that the United States has

10 liens upon certain property, the United States may foreclose those liens, sell the property,
11 and apply the proceeds toward the tax liens at issue. United States v. Craft, 535 U.S. 274
12 (2002); United States v. Rodgers, 461 U.S. 677, 693-94 (1983).
13

31.

This is true even if a third party, along with the delinquent taxpayer, holds

14 an interest in the encumbered real property. 26 U.S.C. § 7403; Rodgers, 461 U.S. at 69915 700.
16

32.

Under Rodgers, district courts have limited discretion to not order a

17 foreclosure sale under 26 U.S.C. § 7403. Rodgers, 461 U.S. at 706-712.
18
19
20
21

6

The United States alludes to other potential alterations to the BECU Loan—including Shaun’s failure to
enforce the repayment schedule and other terms related to payment for escrow items—but fails to connect
22 those alleged alterations to any quantifiable injury to the United States. As such, the United States has
failed to demonstrate substantial impairment sufficient to overcome the BECU Loan’s priority position.

23
FINDINGS OF FACT AND CONCLUSIONS OF LAW - 22

B-22

Case 2:17-cv-00668-TSZ Document 94 Filed 09/13/18 Page 23 of 24

1

33.

The discretion to preclude foreclosure “should be exercised rigorously and

2 sparingly, keeping in mind the Government’s paramount interest in prompt and certain
3 collection of delinquent taxes.” Id. at 711.
4

34.

Defendants have failed to carry the burden of proof that this Court should

5 exercise discretion not to issue a foreclosure order.
6

35.

The United States has established that it has valid federal tax liens against

7 the Subject Property, and therefore the United States is entitled to judgment and to
8 foreclose those liens, sell the Subject Property, and apply the proceeds toward its tax
9 liens. 26 U.S.C. § 7403.
10

36.

Pursuant to 26 U.S.C. § 6323(b)(6) and the stipulation filed in this case

11 (docket no. 17), the United States recognizes the superior interest of King County in the
12 Subject Property by virtue of any assessed and owing real property taxes or special
13 assessments that may be owing at the time of sale. The United States shall include in any
14 proposed order of sale a provision that the net proceeds for sale, defined as the proceeds
15 resulting from the sale of the property less distribution to the United States for the costs
16 of sale, shall be applied to satisfy any amounts entitled to priority under 26 U.S.C.
17 § 6323(b)(6) that are assessed and owing to King County for the Subject Property prior to
18 application of the funds to fully or partially satisfy the United States’ interest secured by
19 federal tax liens.
20

37.

Pursuant to the Court’s Minute Order (docket no. 63), the Court has found

21 that Shaun is entitled to the same priority position that BECU held with respect to the
22 amount that he paid to BECU for an assignment deed of trust. The Court now finds that
23
FINDINGS OF FACT AND CONCLUSIONS OF LAW - 23

B-23

Case 2:17-cv-00668-TSZ Document 94 Filed 09/13/18 Page 24 of 24

1 Shaun is entitled to the same priority position for the interest accrued on the BECU Loan
2 as set forth in Conclusion of Law 27. Any proposed order of sale shall include a
3 provision that after the costs of sale and any amount due and owing to King County,
4 Shaun is entitled to the next $510,766.26 7 of the proceeds of the sale of the Subject
5 Property based on the 2010 Assignment of Deed of Trust.
6

38.

The United States is entitled to the remainder of the proceeds of the sale of

7 the Subject Property until the United States’ tax liens are satisfied.
8

39.

9

Based on the foregoing Findings of Fact and Conclusions of Law, the United

The United States is entitled to costs and fees herein.

10 States of America is directed to file a proposed final judgment and proposed order for
11 judicial sale within seven (7) days of entry of these Findings of Fact and Conclusions of
12 Law. Defendants shall have seven (7) days after such filings to file any objections to the
13 proposed judgment and order of sale.
14

IT IS SO ORDERED.

15

Dated this 13th day of September, 2018.

17

A

18

Thomas S. Zilly
United States District Judge

16

19
20
21
22

7

This total reflects the principal and interest on the BECU Loan.

23
FINDINGS OF FACT AND CONCLUSIONS OF LAW - 24

B-24

Case 2:17-cv-00668-TSZ Document 101 Filed 10/30/18 Page 1 of 3

Honorable Thomas S. Zilly

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
SEATTLE DIVISION

9
10
11
12
13
14
15
16
17

UNITED STATES OF AMERICA,

)
)
Plaintiff,
)
)
v.
)
)
KOMRON M. ALLAHYARI and SHAUN
)
ALLAHYARI,
)
)
Defendants.
)
_______________________________________)

Case No. 2:17-cv-00668-TSZ
JUDGMENT

Following a bench trial on September 5-6, 2018, and having issued Findings of Fact and

18

Conclusions of Law, docket no. 94, which is incorporated by this reference, IT IS HEREBY

19

ORDERED AND ADJUDGED:

20

1.

Judgment was entered in favor of the United States and against Komron M.

21

Allahyari on June 29, 2018 for federal income tax periods 1999-2002, 2004-2009, and 2011-

22

2013, and for trust fund recovery penalties pursuant to 26 U.S.C. § 6672 for all four quarters of

23

2000-2004 and the first two quarters of 2005, in the total amount of $3,910,470.35, plus

24

additional interest and statutory additions accruing from June 14, 2018, pursuant to 28 U.S.C. §

25

1961(c)(1) and 26 U.S.C. §§ 6621 and 6622, less any payments or credits as provided by law.

26

Judgment
(Case No. 2:17-cv-00668-TSZ)

1

B-25

Case 2:17-cv-00668-TSZ Document 101 Filed 10/30/18 Page 2 of 3

1

2.

The bench trial concerned Counts 4 – 6 of the United States’ Amended

2

Complaint, docket no. 29, which encompassed all claims against Defendant Shaun Allahyari and

3

concerned the parcel of real property which is the subject of this action (the “Subject Property”)

4

and which is commonly described as 3453 77th Place SE, Mercer Island, Washington 98040, and

5

bears King County Assessor’s Parcel No. 545880-0265-09. The legal description of the Subject

6

Property is as follows:

7
8

LOT 8, BLOCK 4, MERCERDALE NUMBER 1, ACCORDING TO THE PLAT
THEREOF RECORDED IN VOLUME 59 OF PLATS, PAGES 94 THROUGH
96, IN KING COUNTY, WASHINGTON

9

3.

With respect to the Subject Property, pursuant to the Court’s Minute Order

10

(docket no. 63), the Court has found that Shaun Allahyari is entitled to the same priority position

11

that the Boeing Employees Credit Union (“BECU”) held with respect to the amount that he paid

12

to BECU for an assignment of deed of trust, which was recorded in King County, Washington at

13

instrument number 20030805002125 (“BECU Deed of Trust”). Shaun Allahyari paid

14

$383,044.74 for the assignment. Docket No. 63. The Court concluded that as of September 30,

15

2018, $127,721.52 of interest had accrued on the BECU loan. Docket No. 94, ¶ 27. Therefore,

16

as of September 30, 2018, Shaun Allahyari was entitled to priority in the amount of $510,766.26,

17

representing both principal and interest on the BECU loan. Id. ¶ 37. Interest shall accrue after

18

September 30, 2018 at a rate of 4.125% annually.

19

4.

With respect to the Subject Property, the 2005 Deed of Trust, which was recorded

20

in King County, Washington at instrument number 20050726002070 (“2005 Deed of Trust”), is

21

not a valid security interest pursuant to 26 U.S.C. § 6323. Additionally, the 2005 Deed of Trust is

22

a fraudulent encumbrance pursuant to the Washington Uniform Fraudulent Transfer Act. The

23

fraudulent encumbrance is hereby set aside.

24

5.

The United States has valid and subsisting federal tax liens arising from the

25

liabilities set forth in paragraph 1 on all property and rights to property of Komron M. Allahyari,

26

including the Subject Property. The United States’ federal tax and judgment liens against the

Judgment
(Case No. 2:17-cv-00668-TSZ)

2

B-26

Case 2:17-cv-00668-TSZ Document 101 Filed 10/30/18 Page 3 of 3

1

Subject Property are foreclosed, and the Subject Property shall be sold pursuant to 26 U.S.C.

2

§ 7403 and 28 U.S.C. § 2001, with the net proceeds to be disbursed as set forth in the Order of

3

Foreclosure and Judicial Sale.

4

6.

The United States is entitled to its costs as the prevailing party on its claims

5

against Defendant Komron Allahyari. The United States is not entitled to its costs against

6

Defendant Shaun Allahyari, as neither party prevailed.

7

IT IS SO ORDERED.

8

Dated: October 30, 2018.

10

A

11

Thomas S. Zilly
United States District Judge

9

12
13
14

Presented by,

15

RICHARD E. ZUCKERMAN
Principal Deputy Assistant Attorney General

16
17
18
19
20
21
22
23
24
25
26

/s/ Yael Bortnick
YAEL BORTNICK
Trial Attorney, Tax Division
/s/ Nithya Senra
NITHYA SENRA
Trial Attorney, Tax Division
U.S. Department of Justice
P.O. Box 683
Washington, D.C. 20044
202-514-6632 (Bortnick)
202-307-6570 (Senra)
202-307-0054 (fax)
Yael.Bortnick@usdoj.gov
Nithya.Senra@usdoj.gov
Attorneys for the United States of America
ANNETTE L. HAYES
United States Attorney
Western District of Washington
Of Counsel
Judgment
(Case No. 2:17-cv-00668-TSZ)

3

B-27

APPENDIX C

Case: 18-35956, 01/20/2021, ID: 11969210, DktEntry: 71, Page 1 of 2

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JAN 20 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,

No.

Plaintiff-Appellee,

18-35956

D.C. No. 2:17-cv-00668-TSZ
Western District of Washington,
Seattle

v.
KOMRON M. ALLAHYARI,

ORDER

Defendant,
and
SHAUN ALLAHYARI,
Defendant-Appellant.
UNITED STATES OF AMERICA,

No.

Plaintiff-Appellant,

18-36076

D.C. No. 2:17-cv-00668-TSZ
Western District of Washington,
Seattle

v.
KOMRON M. ALLAHYARI; SHAUN
ALLAHYARI,

ORDER

Defendants-Appellees.
Before: M. SMITH and N.R. SMITH, Circuit Judges, and TUNHEIM,* District
Judge.

*

The Honorable John R. Tunheim, Chief United States District Judge
for the District of Minnesota, sitting by designation.
C-1

Case: 18-35956, 01/20/2021, ID: 11969210, DktEntry: 71, Page 2 of 2

The panel unanimously voted to deny the petition for panel rehearing. Judge
M. Smith voted to deny the petition for rehearing en banc, and Judges N.R. Smith
and Tunheim so recommend.
The full court has been advised of the petition for rehearing en banc and no
judge of the court has requested a vote on it. Fed. R. App. P. 35. The petition for
panel rehearing and the petition for rehearing en banc are DENIED.

2

C-2

APPENDIX D

Case: 18-35956, 02/11/2021, ID: 12000812, DktEntry: 74, Page 1 of 2

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
FEB 11 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,

No.

Plaintiff-Appellee,

18-35956

D.C. No. 2:17-cv-00668-TSZ
Western District of Washington,
Seattle

v.
KOMRON M. ALLAHYARI,

ORDER

Defendant,
and
SHAUN ALLAHYARI,
Defendant-Appellant.
UNITED STATES OF AMERICA,

No.

Plaintiff-Appellant,

18-36076

D.C. No. 2:17-cv-00668-TSZ
Western District of Washington,
Seattle

v.
KOMRON M. ALLAHYARI; SHAUN
ALLAHYARI,
Defendants-Appellees.

Before: M. SMITH and N.R. SMITH, Circuit Judges, and TUNHEIM,* District
Judge.

*

The Honorable John R. Tunheim, Chief United States District Judge
for the District of Minnesota, sitting by designation.
D-1

Case: 18-35956, 02/11/2021, ID: 12000812, DktEntry: 74, Page 2 of 2

Defendant-Appellant’s motion for stay of the mandate pending its petition for
writ of certiorari is GRANTED. Fed. R. App. P. 41. The mandate shall be stayed
until June 21, 2021 pending the filing of a petition for writ of certiorari in the
Supreme Court. Defendant-Appellant shall file correspondence in this court
confirming it has filed such a petition, at which point the stay shall continue until
certiorari is denied or final disposition by the Supreme Court.

2

D-2

APPENDIX E

Case: 18-35956, 03/21/2019, ID: 11238384, DktEntry: 20-2, Page 212 of 292
Case 2:17-cv-00668-TSZ Document 41-1 Filed 06/14/18 Page 95 of 471

004-001
E-1

ER0427

Case: 18-35956, 03/21/2019, ID: 11238384, DktEntry: 20-2, Page 214 of 292
Case 2:17-cv-00668-TSZ Document 41-1 Filed 06/14/18 Page 140 of 471

009-001
E-2

ER0429

